CR-B-01-01




         AUDIT                   ISSUES REGARDING FEE STRUCTURE
                                     FOR THREE ENVIRONMENTAL
        REPORT                        MANAGEMENT CONTRACTS




                                                MAY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                    DEPARTMENT OF ENERGY
                                      Washington, DC 20585

                                           May 9, 2001




MEMORANDUM FOR THE DIRECTOR, OFFICE OF MANAGEMENT AND ADMINISTRATION

FROM:                     Phillip L. Holbrook (Signed)
                          Deputy Inspector General
                           for Audit Services
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on “Issues Regarding Fee Structure for
                          Three Environmental Management Contracts”


BACKGROUND

Over the last decade, the Department of Energy has been involved in a major effort to reform its
contracting practices, including efforts to increase the accountability and enhance the performance of
its facility management contractors. This includes contractors managing sites primarily devoted to
environmental restoration activities. While implementing its overall reform strategy, the Department
has increased fees available to these contractors. The objective of the Department’s approach was to
attract superior firms to perform the cleanup work and to provide greater financial incentives to
encourage improved performance. We looked at three specific contracts (Rocky Flats, Oak Ridge,
and Hanford) that had maximum available fees in excess of $800 million over the lifetimes of the
contracts. Actual fees earned will depend upon contract performance. The purpose of this audit was
to determine whether the fee pools made available to these contractors were commensurate with the
risks and responsibilities assumed.


RESULTS OF AUDIT

We were unable to determine whether fees made available to the three contractors were fully
commensurate with the risks and responsibilities assumed. We found that there are many
complexities in determining applicable fee, and that the documented record in certain circumstances
was not adequate for us to make a determination. In addition, the Department used a different
negotiating methodology for calculating available fee at each of the three locations: weighted
guidelines at Rocky Flats, the management and operating fee policy at Oak Ridge, and competitive
bid at Hanford. Based on a preliminary analysis of contract clauses and risks, we concluded that
despite similarities among all Department facilities management contracts, available fees at Rocky
Flats and Hanford tended to be higher than fees made available to other Department contractors.
However, Department officials believed that, historically, fees made available to facility contractors
may not have been adequate to attract best-in-class contractors. This position was reflected in the
Department’s recently issued report on Analysis of the DOE Contractor Base. In addition,
                                                  -2-

Procurement officials held the position that the fees made available to the three contractors reviewed
were developed in accordance with applicable Acquisition Regulations, and, as such, were
appropriate.

Although we were unable to fully satisfy the objective of our audit, during our review we noted that
at one of the locations examined, Rocky Flats, available fee was established at a level substantially
above the recommendation of a Government Cost Estimate and the Government’s original “going-
in” negotiating position. Management, in response to our inquiries, indicated that the Rocky Flats
fee reflected the risks associated with the type of award and the unique challenges that the contractor
would face in the execution of the contract. Although these are important points, the record of
negotiation did not, in our judgment, set forth a clear and documented rationale for the Rocky Flats
fee structure. Issues associated with establishing a clear rationale and cost/benefit analyses
supporting available fees have been discussed in a number of previous Office of Inspector General
reports.


MANAGEMENT REACTION

Department officials provided extensive written and oral comments in response to earlier drafts of
this report. In these comments, management disagreed with our assessment and indicated that the
post-negotiation memorandum provided a detailed record of the fee negotiation process.

In our view, however, the fee negotiation process was not documented thoroughly enough so that the
Department’s rationale was clear and transparent to ensure that the interests of the taxpayers were
protected.



Attachment

cc: Assistant Secretary for Environmental Management
ISSUES REGARDING FEE STRUCTURE FOR THREE
ENVIRONMENTAL MANAGEMENT CONTRACTS




TABLE OF
CONTENTS

                   Overview

                   Introduction and Objective..........................................1

                   Conclusions and Observations ...................................1


                   Documentation Issues

                   Details of Finding .......................................................3

                   Recommendation .......................................................5

                   Management Reaction ...............................................5

                   Auditor Comment .......................................................5


                   Appendices

                   Scope and Methodology.............................................6

                   Prior Audit Reports .....................................................7
OVERVIEW

INTRODUCTION AND   Historically, the Department of Energy (Department) has relied on
OBJECTIVE          contractors to help execute its missions in energy, defense, sciences,
                   and environmental restoration.

                   Beginning in the mid-1990s, the Department initiated several efforts to
                   increase performance and accountability of its contractors. Most
                   notably, the Department undertook a sizable contract reform effort and
                   revised regulations to hold contractors more accountable for their
                   activities.

                   In the midst of these efforts, the Department awarded contracts at
                   Rocky Flats, Oak Ridge, and Hanford to operate sites primarily devoted
                   to environmental restoration activities. At each of these locations, the
                   prime contractor assigns tasks to subcontractors to accomplish a
                   significant portion of the work. The objective of this audit was to
                   determine whether fees made available to these remediation contractors
                   were commensurate with their risks and responsibilities assumed.


CONCLUSIONS AND    We were unable to determine whether fees made available to the three
OBSERVATIONS       contractors were fully commensurate with the risks and responsibilities
                   assumed. However, during the course of our review we noted that the
                   Department’s rationale for the available fee associated with the Rocky
                   Flats contract was not well documented.

                   While we acknowledge that the concept of sufficient documentation is
                   subjective in nature and that reasonable observers can disagree as to
                   “how much is enough,” a number of factors argue for a full and
                   complete record of the Department’s rationale in establishing fees at
                   Rocky Flats. The factors include:

                       1. The contract was awarded on a non-competitive, sole-source
                          basis to the incumbent contractor;
                       2. The fee package included a substantial increase in overall fees
                          from those paid for prior work at the site; and,
                       3. The contract had a maximum available fee of $460 million, or
                          11.6 percent of total contract costs, an extremely large figure
                          relative to fees available to other Department facilities
                          management contractors.

                   In making our observations and conclusions, we recognize that there are
                   many factors involved in the negotiating process. As the Federal




Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         Acquisition Regulation states, the Government should “offer
         contractors opportunities for financial rewards sufficient to stimulate
         efficient contract performance [and attract] the best capabilities of
         qualified large and small business[es]….” Further, in the final analysis,
         the fee structure in each contract is the result of what is often a complex
         and difficult negotiating process—the “give and take” on key contractual
         terms between the Department and prospective contractors. However,
         in our view, this process should be thoroughly documented so that the
         Department’s rationale supporting its strategy as it evolves during
         negotiation is clear and transparent to ensure that the interests of the
         taxpayers are protected.




                                                          Signed
                                                Office of Inspector General




Page 2                                          Conclusions and Observations
DOCUMENTATION ISSUES
Fee Negotiation Process   A Government Cost Estimate (GCE) recommended that the target fee1
                          for the Rocky Flats contract not exceed 5 percent of the total cost of the
                          contract2. The GCE report further recommended that if the Department
                          was “unable to attain [this] target in the negotiations…DOE should
                          compete the contract [since]…at least three viable bids could be
                          obtained via competition.” The GCE’s recommendation was supported
                          by a comprehensive analysis which determined that the “DOE average
                          fee [was] 4.1 percent.”

                          A senior member of the Rocky Flats negotiating team advised us that,
                          given the type of the Rocky Flats contract (cost-plus-incentive-fee), the
                          fee portion of the GCE was flawed and was, therefore, not considered a
                          valid basis for fee negotiation. Specifically, officials did not believe
                          that the authors of the GCE had significant experience in fee
                          determination.

                          The Rocky Flats team initiated negotiation on a sole-source basis with
                          the incumbent contractor and formulated a “going-in” target fee of
                          6 percent and an “upper negotiation” position of 8 percent. Ultimately,
                          the target fee incorporated in the contract was 9 percent of total cost.
                          The various fee ranges are illustrated in the following table.

                               Table 1: Fee Ranges Associated With the Rocky Flats Contract

                                                    Minimum Fee        “Target Fee”       Maximum Fee


                              Government Cost                     0                5%      [Undefined]
                              Estimate
                              Negotiating
                              Position
                               “Going in”                        0                 6%                10%
                               “Upper                           4%                 8%                12%
                                 negotiation”
                              Final Negotiated               3.77%                 9%              11.6%
                              Fee Structure



                          The shaded column illustrates that the target fee progressed from
                          5 percent to 9 percent, representing a difference of $157 million in
                          potential fee payments over the life of the contract. Even accepting
                          ________________
                          1
                            “Target fee” is the fee to be paid if cost and schedule milestones are met. A
                          minimum and maximum fee are established to create a range of incentive
                          effectiveness for the range of probable cost both parties agree is reasonable given the
                          uncertainties associated with the effort.
                          2
                            The fee recommendation of the GCE was not developed using standard Government
                          fee methodology, i.e., weighted guidelines, or the DEAR 970 fee methodology.

Page 3                                                                                    Details of Finding
                        the negotiating team’s assertion that the GCE was not valid, the
                        Department did not adequately document, in our view, the rationale
                        supporting the target fee’s progression from the “going in” position of
                        6 percent to the 9 percent incorporated in the final contract. The need
                        for a clear record on this matter was heightened by the fact that the
                        negotiated target fee of 9 percent was substantially higher than the fee
                        made available to the incumbent contractor for previous work
                        performed at the Rocky Flats site.

                        The Rocky Flats contract also included what we judged to be a
                        significant minimum fee. For this contract, the Department’s “going-
                        in” negotiation position was for a minimum fee of zero percent and a
                        maximum of 10 percent of the total contract cost. In the final
                        negotiations, the Department agreed to a minimum fee of 3.77 percent
                        ($150 million) and a maximum fee of 11.6 percent. Given that an
                        unusually high maximum fee relative to traditional Department
                        contracts was negotiated, the rationale for a minimum fee of 3.77
                        percent was not apparent to us, although the amount was less than the
                        amount approved for negotiation.


Analysis of             In comments made during the audit, management stated that the
Departmental Position   Department’s post negotiation memorandum contained an in-depth
                        explanation of how they developed the target cost, target fee, and target
                        schedule from the early part of the negotiations to the final contract.
                        While we did find extensive notes on changes in the total Rocky Flats
                        project cost, this was not the case for decisions regarding fee. The final
                        negotiation memorandum only identified the “going-in” position, the
                        contractor’s requested fee, and the final negotiated fee of 9 percent. It
                        did not fully explain or document changes in the fee objective. The fact
                        that the contract was awarded on a sole-source basis, in our view,
                        suggests that a higher level of documentation was warranted.

                        Management also indicated that the negotiated fees were reasonable,
                        and the fee structure was approved at the “highest levels” in the
                        Department. Our concern, however, is not with the approval levels, but
                        with the requirement for a transparent, well-documented basis
                        explaining the evolution of the fee determination process. In this case,
                        fees were increased without, in our judgment, sufficient information to
                        explain the basis for increases.

                        Finally, management pointed out that the minimum fee (3.77 percent)
                        was less than the approved upper negotiation position (4 percent).
                        While this statement is correct, we were still uncertain, based on the


Page 4                                                                        Details of Finding
                   records of negotiation, why the Department agreed to such a high
                   minimum fee.


Need for a Clear   In response to the Department’s contract reform efforts and previous
Record             audits relating to fees, Headquarters Procurement developed extensive
                   guidance on contractor fees. The Department’s Acquisition Guide and
                   its 1998 Acquisition Letter provide specific criteria to be used in the
                   formulation of profit objectives and the negotiation of fees. This
                   guidance, combined with basic Federal and Department procurement
                   requirements, particularly those relating to documentation, generally
                   provide a sound basis for contractor fee determination.

                   In the case of the Rocky Flats negotiations, however, management told
                   us that its key objective was to keep total costs to a minimum, not to
                   minimize fee. Management noted that Government-wide regulations
                   specifically state that negotiation objectives aimed merely at reducing
                   prices by reducing profit are not in the Government’s best interests and
                   do not provide proper motivation to the contractor for optimum
                   performance. We support the notion that completion of the task and
                   overall cost containment are appropriate goals. Nevertheless, the
                   unusually large negotiated fee at Rocky Flats, the progression of the fee
                   objective during negotiations, and the sole-source nature of the contract
                   all suggest that the Department fully document its rationale.


RECOMMENDATION     We recommend that the Director, Procurement and Assistance
                   Management ensure that the negotiation process be thoroughly
                   documented so that the Department’s rationale supporting its fee
                   strategy as it evolves during negotiation is clear and transparent to
                   protect the interests of the taxpayers. Specifically, the Director should
                   re-emphasize the need to thoroughly document the rationale for
                   available fee determinations.


MANAGEMENT         Management provided extensive written and oral comments in response
REACTION           to earlier drafts of this report. The report reflects those comments.
                   With regard to the negotiation of available fees at Rocky Flats,
                   management asserted that the documented record was sufficient.


AUDITOR COMMENT    In our judgment, the fee negotiation process was not documented
                   thoroughly enough so that the Department’s rationale was fully
                   explained.

Page 5                                                Recommendation and Comments
Appendix 1

SCOPE         The audit was performed from October 1999 to December 2000 and
              included facilities management contracts awarded between 1995 and
              2000 at the Department of Energy Headquarters, the Richland and Oak
              Ridge Operations Offices, and the Rocky Flats Field Office.


METHODOLOGY   To address the audit objective, we:

              •   reviewed Federal and Departmental regulations and guidance
                  related to Federal contracting practices,

              •   reviewed performance measures in accordance with the
                  requirements of the Government Performance and Results Act,

              •   compared contract elements and risks associated with each
                  management contract,

              •   held discussions with Department procurement officials to
                  determine methodologies and philosophies used to determine
                  contractor available fees,

              •   reviewed fee comparisons made by the Department, and

              •   developed a comparison between actual available fees for the
                  contracts reviewed and the amount that would be computed using
                  the Department's fee policies.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to address the audit objective. Internal controls
              were assessed with respect to the Department's management contractor
              fee formulation process. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not rely on computer-
              processed data. An exit conference was held with appropriate
              Headquarters officials on May 2, 2001.




Page 6                                                    Scope and Methodology
Appendix 2

                                      PRIOR AUDIT REPORTS

                  OFFICE OF INSPECTOR GENERAL RELATED REPORTS

         Bechtel Jacobs Company LLC's Management and Integration Contract at Oak Ridge,
         (DOE/IG-0498, March 2001). Bechtel Jacobs did not use competitive, fixed-price subcontracts
         or reduce staffing to the extent proposed. As of September 30, 2000, nearly three years after
         award of the contract, Bechtel Jacobs had subcontracted less than 60 percent of the original
         workscope. Further, the contractor had reduced staffing through transition to the subcontractors
         by only 58 percent. The Department could have saved an additional $44.1 million in Fiscal Year
         2000 had Bechtel Jacobs met the initial terms of its proposal.

         The U.S. Department of Energy's Efforts to Increase the Financial Responsibility of Its Major
         For-Profit Operating Contractors, (DOE/IG-0432, November 1998). The Government was not
         adequately protected against contractor created liabilities on 16 of its 20 major for-profit
         operating contracts awarded by the Department of Energy; however, the Department increased
         fees from $167 to $204 million to compensate the 16 major contractors for assuming additional
         perceived risks.

         The U.S. Department of Energy's Prime Contractor Fees on Subcontractor Costs,
         (DOE/IG-0427, September 1998). The Department did not adjust the fee bases of prime
         contractors to reflect actual efforts associated with oversight of subcontractors, which resulted in
         prime contractors being paid fee for the administration of subcontractors as well as for the
         subcontractor efforts. For 12 prime contractors audited, fees in a one-year period increased by
         an estimated $34 million because fee bases were not adjusted.

         Audit of Department of Energy Management and Operating Contractor Available Fees,
         (DOE/IG-0390, May 1996). The Department proposed revisions to its fee structure that would
         increase available contractor fees, possibly by as much as $218 million per year. The revisions
         were initiated without conducting a cost-benefit analysis to demonstrate whether the changes
         were cost effective and would achieve envisioned benefits.

         Audit of Implementation of the Accountability Rule, (DOE/IG-0339, January 1994). The
         Department spent $22.8 million in increased contract fees and $2.5 million in administrative
         costs to implement the Accountability Rule at five contractors with no conclusive evidence that
         the Accountability Rule was achieving its objectives.




Page 7                                                                                       Prior Reports
                       GENERAL ACCOUNTING OFFICE RELATED REPORTS


         Progress Made at Rocky Flats, but Closure by 2006 is Unlikely, and Costs May Increase,
         (GAO-01-284, February 2001). Although Kaiser-Hill has made significant progress toward
         cleaning up the Rocky Flats Site in the five years that it has been the major contractor, the
         majority and most complicated portions of the work remain to be done. Because of the
         significant and complex challenges that must be overcome, Kaiser-Hill and the Department are
         unlikely to meet the 2006 target closure date and related delays will increase the estimated
         $7.5 billion clean-up cost.

         DOE Needs to Assess the Impact of Using Performance-Based Contracts, (GAO/RCED-99-141,
         May 1999). The Department has not determined whether giving higher fees to encourage
         superior performance by its laboratory contractors is advantageous to the Government, despite a
         previous recommendation to develop criteria for measuring the costs and benefits of using
         higher fees.

         Accelerated Closure of Rocky Flats: Status and Obstacles, (GAO/RCED-99-100, April 1999).
         While the Department and Kaiser-Hill have had some success in accelerating cleanup activities,
         it is questionable whether they can meet the Department's target date of 2006 for cleaning up
         and closing Rocky Flats at the costs and savings originally projected. They face numerous
         challenges, significant compression of schedule activities, and unresolved issues relating to the
         disposal of certain wastes and the site's condition at closure.

         Modest Reforms Made in University of California Contracts, but Fees are Substantially Higher,
         (GAO/RCED-94-202, August 1994). The Department more than doubled the fees for its
         University of California contracts from $13 to $30 million under the contention that the
         University accepted additional financial risk. However, the Department acknowledges that
         paying fees in exchange for increased risk has been costly and has not improved the
         accountability of its for-profit contractors. Without criteria for measuring the benefits of having
         the university assume limited risks against the fees paid, the Department is continuing an
         approach that has so far been costly and ineffective.




Page 8                                                                                      Prior Reports
                                                                                   Report No.: CR-B-01-01


                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
